No. 20-334
IN THE

Supreme Court of the United States
————
CITY OF SAN ANTONIO, TEXAS, ON BEHALF OF ITSELF
AND ALL OTHER SIMILARLY SITUATED
TEXAS MUNICIPALITIES,

v.

Petitioner,

HOTELS.COM, L.P.; HOTWIRE, INCORPORATED;
TRIP NETWORK, INCORPORATED, DOING BUSINESS AS
CHEAPTICKETS.COM; EXPEDIA, INCORPORATED;
INTERNETWORK PUBLISHING CORPORATION,
DOING BUSINESS AS LODGING.COM; ORBITZ, L.L.C.;
PRICELINE.COM, INCORPORATED; SITE59.COM, L.L.C.;
TRAVELOCITY.COM, L.P.; TRAVELWEB, L.L.C.;
TRAVELNOW.COM, INCORPORATED,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
————
BRIEF IN OPPOSITION
————
ANNE MARIE SEIBEL
THOMAS M. PETERSON
BRADLEY ARANT BOULT
Counsel of Record
CUMMINGS LLP
MORGAN, LEWIS & BOCKIUS LLP
1819 5th Avenue North
One Market
Birmingham, AL 35203
Spear Street Tower
San Francisco, CA 94105
MICHAEL BENTLEY
(415) 442-1000
BRADLEY ARANT BOULT
thomas.peterson@
CUMMINGS LLP
morganlewis.com
One Jackson Place
188 E. Capitol Street
Counsel for Respondents
Ste 1000
Hotels.com L.P., Hotwire,
Jackson, MS 39201
Inc., Trip Network, Inc.,
Expedia, Inc., Internetwork
Counsel for Respondents
Priceline.com Incorporated Publishing Corp., Orbitz, LLC.,
(n/k/a Booking Holdings and TravelNow.com, Inc.
Inc.) and Travelweb L.L.C.
[Additional Counsel Listed On Inside Cover]
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

DAVID KELTNER
KELLY HART & HALLMAN LLP
201 Main Street
Ste 2400
Fort Worth, TX 76102
Counsel for Respondents
Site59.com, L.L.C. and
Travelocity.com L.P.

QUESTION RESTATED
In 1991, the Fifth Circuit held that a district court
lacks discretion to modify costs awarded by the court
of appeals. In re Sioux Ltd., Sec. Litig., No. 87-6167,
1991 WL 182578 (5th Cir. Mar. 4, 1991). That holding
accords with the text of Fed.R.App.P. 39.
The Fifth Circuit’s precedent has been in force for
nearly 30 years. During that time Rule 39 was
amended several times but the Rules Committee has
seen no need to address the alleged circuit split the
petitioner claims.
Does a stale circuit split left undisturbed by the
Rules Committee—and a question on which the Fifth
Circuit’s precedent aligns with the text of Fed.R.App.P.
39—merit the Court’s resources, particularly where
the arguments necessary to address the proper interpretation of Rule 39 were not fully developed below?

(i)

ii
RULE 29.6 STATEMENT
Respondents are 11 online travel companies or
entities affiliated with online travel companies. Each
is listed below along with the parent corporation or
any publicly held company that owns 10% or more of
the corporation’s stock.
1.

Expedia, Inc.
Expedia, Inc. is a Washington corporation, which
is wholly owned by Expedia Group, Inc., a publicly
held Delaware corporation that has no parent
corporation.
Travelscape, LLC is a Nevada limited liability
corporation, which is wholly owned by Expedia,
Inc., a Washington corporation.

2.

TravelNow.com, Inc. has no parent or publicly
held company owning 10% or more of the
corporation’s stock.

3.

Hotels.com, L.P.
Hotels.com, L.P. is a Texas limited liability
partnership, which is wholly owned by Hotels.com
GP, LLC, a Texas limited liability corporation,
and HRN 99 Holdings, LLC, a New York limited
liability corporation. Hotels.com GP, LLC and
HRN 99 Holdings, LLC are wholly owned by
Expedia, Inc., a Washington corporation.

4.

Hotwire, Inc.
Hotwire, Inc. is a Delaware corporation, which is
wholly owned by Expedia, Inc., a Washington
corporation.

iii
5.

Orbitz, LLC
Orbitz, LLC is a Delaware limited liability
corporation, which is wholly owned by Orbitz,
Inc., a Delaware corporation. Orbitz, Inc. is
wholly owned by Orbitz Worldwide, LLC, a
Delaware limited liability corporation. Orbitz
Worldwide, LLC, is wholly owned by Orbitz
Worldwide, Inc., a Delaware corporation. Orbitz
Worldwide, Inc. is wholly owned by Expedia, Inc.,
a Washington corporation.1

6.

Internetwork Publishing Corp. (d/b/a Lodging.com)
Internetwork Publishing Corp. is wholly owned by
Orbitz Worldwide, LLC, a Delaware limited liability corporation. Orbitz Worldwide, LLC, is wholly
owned by Orbitz Worldwide, Inc., a Delaware
corporation. Orbitz Worldwide, Inc. is wholly owned
by Expedia, Inc., a Washington corporation.

7.

Trip Network, Inc. (d/b/a CheapTickets.com)
Trip Network, Inc. is wholly owned by Orbitz
Worldwide, LLC, a Delaware limited liability corporation. Orbitz Worldwide, LLC, is wholly owned
by Orbitz Worldwide, Inc., a Delaware corporation.
Orbitz Worldwide, Inc. is wholly owned by Expedia,
Inc., a Washington corporation.

8.

Travelocity.com LP (n/k/a TVL LP)2

9.

Site59.com, LLC has no parent or publicly held
company owning 10% or more of the corporation’s
stock.
1

In September 2015, Expedia, Inc. acquired Orbitz Worldwide,
Inc., including all of its brands and assets.
2

In 2015, Expedia, Inc. acquired the brand and assets of
Travelocity.com LP.

10. priceline.com
Holdings Inc.)

iv
Incorporated

(n/k/a

Booking

priceline.com LLC, which, effective April 1, 2014,
assumed the operations of priceline.com
Incorporated as they relate to the merchant model
hotel business at issue in this case.
11. Travelweb LLC has no parent or publicly held
company owning 10% or more of the corporation’s
stock.

TABLE OF CONTENTS
Page
QUESTION RESTATED .....................................

i

RULE 29.6 STATEMENT ...................................

ii

TABLE OF AUTHORITIES ................................

vi

INTRODUCTION ................................................

1

STATEMENT ......................................................

4

REASONS TO DENY CERTIORARI .................

8

I. THE QUESTION PRESENTED DOES
NOT WARRANT THIS COURT’S
REVIEW ....................................................

8

A. Petitioner vastly overstates the existence of any circuit split and, to the
extent one exists, it is stale; the cases
have been in the same posture for a
long time without noticeable consequences for the administration of
justice ...................................................

8

B. The Fifth Circuit’s precedent is in
line with Rule 39’s text, meaning there
is no glaring need to consider new
arguments petitioner did not properly
develop .................................................

13

C. The petition mischaracterizes the
applicable background principles .......

17

II. THIS CASE IS A POOR VEHICLE TO
CONSIDER THE RULE 39 STANDARD

20

CONCLUSION ....................................................

23

(v)

vi
TABLE OF AUTHORITIES
Cases

Page(s)

Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) ...................................

17

Berthelsen v. Kane,
907 F.2d 617 (6th Cir. 1990) .....................

12

Bose Corp. v. Consumers Union of U.S., Inc.,
806 F.2d 164 (1st Cir. 1986) .....................

12

Campbell v. Rainbow City,
209 F. App’x. 873 (11th Cir. 2006) ...........

10

City of Houston v. Hotels.com, L.P.,
357 S.W.3d 706 (Tex. App.—Houston
[14th Dist.] 2011, pet. denied) .................. 4, 22
City of San Antonio v. Hotels.com, L.P.,
876 F.3d 717 (5th Cir. 2017) .....................

5

Cutter v. Wilkinson,
544 U.S. 709 (2005) ...................................

13

Dana Corp. v. IPC Ltd. P’ship,
No. 90-1443, 1991 WL 5890
(Fed. Cir. Jan. 25, 1991) ...........................

12

Emmenegger v. Bull Moose Tube Co.,
324 F.3d 616 (8th Cir. 2003) .....................

12

Enserch Corp. v. Shand Morahan,
918 F.2d 462 (5th Cir. 1990) .....................

22

Guse v. J.C. Penny Co.,
570 F.2d 679 (7th Cir. 1978) .....................

8, 9

Holly Farms Corp. v. NLRB,
517 U.S. 392 (1996) ...................................

13

Illinois v. Gates,
462 U.S. 213 (1983) ...................................

13

vii
TABLE OF AUTHORITIES—Continued
Page(s)
In re Bonds Distrib. Co.,
73 F. App’x 606 (4th Cir. 2003) ................

12

In re Sioux Ltd., Sec. Litig.,
No. 87-6167, 1991 WL 182578
(5th Cir. Mar. 4, 1991) .............................passim
Johnson v. Pac. Lighting Land Co.,
878 F.2d 297 (9th Cir. 1989) .....................

12

Kamen v. Kemper Fin. Servs., Inc.,
500 U.S. 90 (1991) .....................................

13

L-3 Commc’ns Corp. v. OSI Sys., Inc.,
607 F.3d 24 (2d Cir. 2010) ........................

11

Matsushita Elec. Indus. Co. v. Epstein,
516 U.S. 367 (1996) ...................................

13

Republic Tobacco Co. v. N. Atl.
Trading Co.,
481 F.3d 442 (7th Cir. 2007) .....................

9

Standard Concrete Prods. Inc. v.
Gen. Truck Drivers Union Local 952,
175 F. App’x 932 (9th Cir. 2006) ..............

11

White v. Sundstrand Corp.,
256 F.3d 580 (7th Cir. 2001) ..................... 20, 21
Statutes
28 U.S.C. § 1920 ....................................... 5, 18, 19
Rules
11th Cir. R. 36-2 ...........................................

10

Fed. R. App. P. 39 ........................................passim
Fed. R. Civ. P. 54 ................................ 5, 10, 18, 19

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Fed. R. Civ. P. 62 ........................................ 3, 4, 22
Sup. Ct. R. 10 ................................................

1

Regulations
GUIDELINES FOR DRAFTING AND EDITING
COURT RULES, 169 F.R.D 176 (1997) ........

14

INTRODUCTION
Petitioner (City of San Antonio) asks this Court to
expend its limited and valuable resources to relieve
the city of the consequences of its informed and deliberate actions. Petitioner knew that an on-point Texas
appellate decision foreclosed the legal arguments it
aggressively pursued in federal court in this diversity
case seeking the collection of hotel taxes levied by
Texas municipalities. Petitioner insisted that defendantsrespondents post nearly $70 million in supersedeas
bonds to stay enforcement of the checkered federal
court judgment petitioner obtained despite clear countervailing Texas precedent. The Fifth Circuit predictably
reversed that judgment and rendered judgment for
respondents, relying on that Texas precedent. Petitioner
knew Fed.R.App.P. 39 awards supersedeas bond
premium expenses to successful appellants as recoverable appellate costs. Petitioner also knew that Fifth
Circuit precedent left discretion over appellate cost
awards in the hands of the court of appeals panel that
evaluates the strengths and weaknesses of the appeal
it decides. So no great act of prophesy was needed for
the city to see, at nearly every turn, that its hyperaggressive litigation tactics in the face of adverse state
precedent would lead the Fifth Circuit to award appellate costs to respondents, including their supersedeas
bond premium expenses.
Now, petitioner asks the Court to undo the foreseeable consequences of the city’s deliberate choices
even though the Rule 10 standards for certiorari are
not satisfied. The writ should be denied for six primary
reasons.
First, petitioner overstates any circuit split, as the
Fifth Circuit recognized. Op. 9 n.2. To the extent there
is a split, it is a stale one that has existed for
(1)

2
approximately thirty years without noticeable adverse
consequences.
Second, petitioner does not present an exceptional
question warranting review. At issue is the interpretation of part of Rule 39 of the Federal Rules of Appellate
Procedure—an interpretation the Rules Committee
has not seen need to address for thirty years, despite
repeated amendments to Rule 39. If any evaluation of
the operation of Rule 39 were appropriate, it should be
done by the Rules Committee, which can evaluate
whether to propose what would amount to a revised,
legislative solution.
Third, there are also serious issues of forfeiture that
make this case a poor vehicle for any review. Petitioner
did not argue to the Fifth Circuit panel, as it does now,
that the Fifth Circuit decision addressing discretion to
award as costs supersedeas bond premium expenses,
In re Sioux Ltd., Sec. Litig., No. 87-6167, 1991 WL
182578 (5th Cir. Mar. 4, 1991), misinterpreted Rule
39(e). Petitioner’s arguments then, which they do not
renew here, “missed the mark.” Op. 11.
Fourth, petitioner’s belatedly asserted objections to
the Sioux decision, and whether it faithfully applied
Rule 39, flounder on the fact that Rule 39 unambiguously vests the appellate court with discretion to
award all the costs associated with an appeal, under
subsection (a), and then provides that certain costs are
taxed in the district court, under subsection (e). Fed.
Rule App. P. 39(a), (e). But subsection (e) does not vest
discretion in the district court to modify the appellate
court’s award, just as it does not transfer to the district
court the appellate court’s discretion over appellate
costs. Thus, the Fifth Circuit’s decision in In re Sioux
is in line with a plain-text reading of the Rule in both
its current and pre-amendment form.

3
Fifth, even if the Court were to grant the writ and
decide in petitioner’s favor, the outcome here would
not change. There is no proper basis for the district
court to exercise discretion to reduce or eliminate the
award of supersedeas bond premium costs to the respondents. Petitioner brought this case as a class action and
acted as the named class representative. Courts have
repeatedly rejected the argument petitioner made
against imposing bond expense liabilities on it,
namely, that it should only be responsible for a proportional share of respondents’ total bond premiums.
Sixth, petitioner mischaracterizes the genesis of the
bond premium expenses incurred. Respondents did
not voluntarily incur these bond expenses. Petitioner
demanded the bonds and joined in the request for
court approval of the bond amounts. Then, over the
course of the several years leading up to the Fifth
Circuit’s reversal of the tax liability judgment, petitioner insisted that respondents increase the amount
of the supersedeas bonds to account for the passage of
time, all while knowing adverse state precedent
imperiled the judgment. And while the city laments
the alleged plight of local taxpayers, it neglects to
inform the Court that it will not be required to pay the
appellate costs awarded because the city’s contingency
fee attorneys agreed to pay those as part of the agreement by which they were hired to handle the case.
In short, respondents did just what Federal Rule of
Civil Procedure 62 requires to stay execution of a
judgment pending appeal, and they did so at petitioner’s
insistence. The equities favor respondents, not the
petitioner and its attorneys.
The Court should deny review just as the Fifth
Circuit denied rehearing en banc and refused to stay

4
its mandate pending resolution of the city’s certiorari
petition.
STATEMENT
The City of San Antonio chose to litigate this state
law dispute in federal court for four years after a Texas
state appellate court decision in a similar case involving the City of Houston foreclosed San Antonio’s claims.
It pursued the case as a class action on behalf of
various Texas municipalities, claiming the defendantsrespondents (Online Travel Companies [“OTCs”])
owed Texas hotel occupancy taxes that had not been
paid. Similar claims to unpaid taxes were rejected in
City of Houston v. Hotels.com, L.P., 357 S.W.3d 706
(Tex. App.—Houston [14th Dist.] 2011, pet. denied).
Despite the state appellate court decision, the district
court entered an amended final judgment against the
OTCs in April 2016. In order to avoid execution of that
judgment pending appeal, the OTCs were forced to
obtain nearly $70 million in supersedes bonds, the
first of which were approved by the district court in
April 2013 (when the initial final judgment was entered).
At that time, the city joined with the OTCs in seeking
approval of the supersedeas bonds as sufficient to stay
execution under Federal Rule of Civil Procedure 62.
The risk to petitioners on appeal was fully apparent at
that time: the Texas Supreme Court had already
denied discretionary review in the City of Houston case.
While the parties awaited a hearing and decision in
the Fifth Circuit, the city repeatedly insisted that the
OTCs increase the supersedeas bond amounts and pay
more premiums in order to do so. ROA.19971-72.
The OTCs prevailed on the merits appeal before the
Fifth Circuit, which unanimously vacated the district
court judgment and rendered judgment in the OTCs’

5
favor. See 876 F.3d 717 (5th Cir. 2017). Accordingly,
the OTCs filed an unopposed bill of costs in the Fifth
Circuit seeking their appellate printing costs pursuant
to Fed.R.App.P. 39(d). When the Fifth Circuit’s mandate
issued, it directed that the OTCs could recover “the
costs on appeal to be taxed by the Clerk of this Court.”
In the district court, the OTCs moved, consistent with
the Fifth Circuit’s mandate, to amend the final judgment.
They proposed a judgment that stated “costs shall be
taxed against the Cities in favor of the OTCs pursuant
to 28 U.S.C. § 1920, Fed. R. Civ. P. 54, and Fed. R. App.
P. 39.” ROA.19345. San Antonio did not object, and the
district court entered what was the second amended
judgment.
When the OTCs then filed their bill of costs in the
district court, they included the categories that Rule
39(e) directs are taxable in the district court, including
$2,008,359 in supersedeas bond premium expenses.
Only then did San Antonio object, asserting: (1) the
district court lacked power to tax supersedeas bond
costs; and (2) even if the district court had power to
tax, San Antonio should owe no more than its pro rata
share of those costs based on its share of the class
judgment it secured as class representative. The OTCs
countered that they followed the instructions in Rule
39 and appropriately filed their bills of costs in the
respective trial and appellate courts. They also argued
that the district court lacked the discretion to reduce
the costs awarded under Rule 39(e) and, alternatively,
even if it had discretion in a general sense, the district
court could not exercise it to reduce costs to a mere pro
rata share of recoverable amounts allocated to the
named class representative in a class-certified case.
The district court overruled San Antonio’s objections
and found it lacked discretion to reduce the costs

6
under Sioux. Costs were taxed against San Antonio as
requested in the bill of costs.
San Antonio appealed. The arguments on appeal
focused first on which category the case fell into under
Rule 39(a), which sets presumptions about the parties
entitled to recover costs based on an appeal’s outcome.
The Fifth Circuit easily concluded that its prior
merits decision was a reversal of the district court’s
judgment, meaning costs were taxable against San
Antonio under Rule 39(a).
Second, San Antonio argued that the OTCs could not
seek recovery of their supersedeas bond premiums in
the district court because they did not ask the Fifth
Circuit to award that specific category. The Fifth Circuit
disagreed, holding that the district court is the proper
place to apply for the costs authorized by Rule 39(e).
Finally, as relevant here, San Antonio argued that
the district court erred in deciding it lacked discretion
to reduce the costs taxed. Petitioner argued the Fifth
Circuit’s precedent in Sioux was no longer controlling
law because it relied (in 1991) on a version of Rule
39(e) that was amended in 1998. The Fifth Circuit
disagreed, noting San Antonio “concede[d] that the 1998
amendment was not substantive in nature,” Op. 11,
and its arguments otherwise “misse[d] the mark.” Ibid.
As for San Antonio’s assertion that some circuits have
granted district courts discretion to reduce Rule 39 costs,
the Fifth Circuit recognized that the city “overstate[d]
the out-of-circuit support for its position.” Op. 9 n.2.
In view of the way San Antonio framed the issues on
appeal, the OTCs’ arguments focused on explaining
that the 1998 amendments to the Federal Rules of
Appellate Procedure were intended to be stylistic and
that Sioux remained controlling law. Consequently,

7
nobody devoted meaningful attention to developing for
the Fifth Circuit’s benefit a plain-language interpretation
of Rule 39.
It was only after San Antonio sought rehearing en
banc that it expanded its claim of a circuit split and
redirected its attention to textual arguments. For this
reason, it was only in the word-limited context of opposing en banc review that the OTCs had first had occasion
to explain how Fifth Circuit precedent adheres to the
plain language of Rule 39. The OTCs also highlighted
that, even if the Sioux case merited a renewed examination, this case was not a suitable vehicle for doing
so. First, as the panel correctly recognized, San Antonio
had not argued that Sioux was inconsistent with the
text of Rule 39 but, instead, that Sioux applied an
outdated, amended version of the rule. Second, revising
Sioux would make no difference because, even if district
courts were given discretion over awards of appellate
costs, the district court could not have reasonably exercised its discretion in this case to reduce the amount
of recoverable supersedeas bond premium expenses.
The Fifth Circuit denied rehearing en banc without
addressing the new arguments developed for the first
time at the rehearing stage—the arguments that form
the basis for the petition here.
San Antonio then sought from the Fifth Circuit
a stay of its mandate pending certiorari. The OTCs
opposed on the grounds San Antonio had not shown it
was likely that this Court would grant certiorari and
reverse the Fifth Circuit’s judgment. Judge Duncan
(the author of the panel opinion) agreed and denied the
requested stay.

8
REASONS TO DENY CERTIORARI
I. THE QUESTION PRESENTED DOES NOT
WARRANT THIS COURT’S REVIEW.
A. Petitioner vastly overstates the existence of any circuit split and, to the
extent one exists, it is stale; the cases
have been in the same posture for a
long time without noticeable consequences for the administration of justice.
The Fifth Circuit decided Sioux in 1991. Since that
time, the Rules Committee has amended Rule 39 three
different times: the 1998 amendment at issue in the
court of appeals and then again in 2009 and 2019. Not
once has the Rules Committee felt the need to address
the purported circuit split or the Fifth Circuit’s allegedly
“atextual” (Pet. 21) reading of Rule 39 in Sioux.
This is perhaps because any circuit split is neither
as deep nor as entrenched as petitioner claims. The
city asserts a direct conflict with the Seventh Circuit,
claiming “the Seventh Circuit construed Rule 39(e)
to grant district courts ‘discretionary authority’ to
‘allow[] something less ‘than all of the costs’ and to
‘determin[e] * * * the amount of costs to be allowed.’”
Pet. 11 (citing Guse v. J.C. Penny Co., 570 F.2d 679,
681 (7th Cir. 1978)). But the Seventh Circuit’s decision
did not actually adopt that interpretation of Rule 39.
The Seventh Circuit began with the observation
that “[a]s the matter now stands, with costs on appeal
having been awarded to the defendant, there would
seem to be little discretion left to the district
court as Rule 39(e) provides that bond premiums
‘shall be taxed in the district court as costs of the
appeal in favor of the party entitled to costs under this
rule.’” Guse, 570 F.2d at 681 (emphasis added). Guse,

9
however, then reasoned that a corollary of the appellate court’s discretion to deny costs was that the
district court also had discretion to modify costs. The
court then mused “[t]here is authority that might
be read as granting discretionary authority to the
district court to disallow some or all the costs which
would ordinarily be taxable notwithstanding a reversal
judgment in the appellate court which as here awards
‘costs on appeal.’” Ibid. (emphasis added). But this
was dicta. The Seventh Circuit did not adopt this
reasoning: “[w]e do not here need to decide the extent
of the discretionary authority of the district court to
disallow costs to a prevailing party who has been
awarded costs on appeal[.]” Ibid. Rather, the court
explicitly stated it was “exercis[ing its] discretion”
to modify the mandate and grant the district court
authority to exercise discretion in awarding costs.
Ibid. The Seventh Circuit’s musings in dicta rest on
the unwarranted, extra-textual assumption that,
where a rule explicitly vests the appellate court with
discretion, the district court is by implication equally
vested with discretion.
Republic Tobacco Co. v. North Atlantic Trading Co.,
481 F.3d 442 (7th Cir. 2007), which San Antonio portrays as cementing the Seventh Circuit’s conflict with
the Fifth Circuit, rests on the flawed assumption that
“[i]n Guse[], [the Seventh Circuit] held that a district
court has discretion not to award a party costs * * *
despite an order by the appellate court awarding costs
to that same party.” Id. at 448. But, as noted, Guse
did not actually determine the extent of district court
discretion to modify costs. Instead, it reaffirms a practice
consistent with the Fifth Circuit’s rule: the appellate
court has discretion to modify the award of costs. This
position is not irreconcilable with the Fifth Circuit, as
the city contends. Pet. 11. It just means that in the

10
Seventh Circuit a losing party on appeal might get two
bites at the apple to argue for a reduction in costs, once
to the appellate court and once to the district court.
Petitioner’s “settled law” from the Eleventh Circuit
fares no better: it is an unpublished decision that fails
to place Rule 39(e)’s phrase “are taxable” in context,
and so reads that language as conferring discretion
on the district court, rather than instructing as to
whether the appellate or district court is the tribunal
to implement the appellate court’s costs award. See
Pet. 12 (citing Campbell v. Rainbow City, 209 F. App’x.
873, 875-76 (11th Cir. 2006)); 11th Cir. R. 36-2
(“Unpublished decisions are not considered binding
precedent[.]”).
Campbell also assumes district court discretion
derives from Federal Rule of Civil Procedure 54. 209
F. App’x at 875. But there are important textual
differences between Appellate Rule 39(e) and Civil
Rule 54(d). Unlike Rule 39(e), Civil Rule 54(d) includes
clear, discretion-conferring language. Fed.R.Civ.P.
54(d) (“Unless a federal statute, these rules, or a court
order provides otherwise, costs—other than attorney’s
fees—should be allowed to the prevailing party.”
(emphasis added)). Notably, Civil Rule 54(d) uses nearly
identical, discretion-conferring language with regard
to the district court to that Appellate Rule 39(a)
applies to the appellate court. See Fed.R.App.P. 39(a)
(“The following rules apply unless the law provides or
the court orders otherwise” (emphasis added)). So,
Campbell improperly rests on the inapplicable text of
a civil rule, rather than the appellate rule petitioner
asks the Court to consider.
In sum, San Antonio’s supposed “square conflict” is
neither deep nor entrenched. No litigant has argued
and no court, to the OTCs’ knowledge, has held that

11
the courts are entirely without discretion to modify an
award of costs on appeal; it is simply a question of
whether the discretion extends beyond the appellate
court that evaluates the strengths and weaknesses of
the appeal that it alone decides. San Antonio has a
Seventh Circuit case misinterpreting prior circuit precedent and a non-precedential Eleventh Circuit case
that keys off of a rule that does not apply to appellate
costs. This simply is not the sort of alignment that
beckons for this Court’s guidance, especially where
there have been no noticeable adverse consequences
resulting from any circuit variations over the past
thirty years.
As for the other cases portrayed by San Antonio as
lopsidedly against the Fifth Circuit, (Pet. 14-15), these
are the same cases the Fifth Circuit had in mind when
observing that San Antonio “overstate[d] the out-ofcircuit support for its position.” Op. 9, n.2. This was
not “quibbl[ing].” Pet. 14. If anything, the Fifth Circuit
was unduly charitable to the city when it characterized San Antonio’s argument and authorities.
As the Fifth Circuit correctly observed, the Second
and Ninth Circuit cases “only address a district court’s
discretion to grant Rule 39(e) costs in the absence of,
or in contravention of, a specific instruction from the
appellate court.” Op. 9, n.2 (citing L-3 Commc’ns Corp.
v. OSI Sys., Inc., 607 F.3d 24, 28 (2d Cir. 2010);
Standard Concrete Prods. Inc. v. Gen. Truck Drivers
Union Local 952, 175 F. App’x 932, 933 (9th Cir.
2006)). The Sixth and Eighth Circuit cases are “not
on point” because “they turn on the appellate court’s
manifest intention to leave the taxation decision to
the discretion of the district court in Rule 39(a)(4)
situations” because “it remained unclear which party
would ultimately prevail on the merits.” Op. 9, n.2

12
(citing Emmenegger v. Bull Moose Tube Co., 324 F.3d
616, 627 (8th Cir. 2003); Berthelsen v. Kane, 907 F.2d
617, 622-23 (6th Cir. 1990)). The Federal, First, and
Ninth Circuits are “distinguishable because the appeal
costs at issue were above and beyond those enumerated
in Rule 39(e).” Op. 9, n.2 (citing Dana Corp. v. IPC
Ltd. P’ship, No. 90-1443, 1991 WL 5890, at *3 (Fed.
Cir. Jan. 25, 1991); Johnson v. Pac. Lighting Land Co.,
878 F.2d 297, 298 (9th Cir. 1989); Bose Corp. v.
Consumers Union of U.S., Inc., 806 F.2d 164, 167 (1st
Cir. 1986)). In re Bonds Distribution Co. is distinguishable for the same reason: it addresses costs incurred to
secure a “line of credit in lieu of a supersedeas bond.”
73 F. App’x 606, 607 (4th Cir. 2003).
These cases do not show overwhelming recognition
of district court discretion over appellate costs. Pet. 15.
They establish the opposite: district courts are constrained by Rule 39’s text, which vests the courts of
appeals with discretion to modify appellate cost awards
or to affirmatively transfer discretion so district courts
may modify the way Rule 39 allocates appellate costs.
Apart from all of this, none of petitioner’s cases
address—let alone critique—Sioux. There is, simply,
no “conflict” with Sioux.
Finally, San Antonio highlights the fact six judges
dissented from the decision not to hear this case en
banc. Pet. 16. But ten judges voted against rehearing,
including two of the case panelists. No judge wrote
respecting the denial by, for example, appealing to
higher authority.

13
B. The Fifth Circuit’s precedent is in line
with Rule 39’s text, meaning there is
no need to consider new arguments
petitioner did not properly develop.
As noted in the background statement, the parties’
arguments to the panel focused on whether Sioux was
still controlling precedent in the light of the 1998
amendment to Rule 39. The parties did not present
argument to the panel on how Rule 39(e) should be
interpreted in the context of the entirety of Rule 39.
Yet, such arguments are essential if the Court were to
consider the question presented in the petition. San
Antonio’s failure to develop these arguments doomed
its case before the Fifth Circuit and led the court
to remark that petitioner’s argument “misse[d] the
mark.” Op. 11. And here, the failure to develop these
arguments and tee them up at the court of appeals
means this Court would be addressing them in the
first instance. The Court, however, is “a court of
review, not of first view,” Cutter v. Wilkinson, 544 U.S.
709, 718, n.7 (2005). As such, this Court “generally
do[es] not address arguments that were not the basis
for the decision below.” Holly Farms Corp. v. NLRB,
517 U.S. 392, 400 n.7 (1996) (quoting Matsushita Elec.
Indus. Co. v. Epstein, 516 U.S. 367, 379 (1996)); see
also Illinois v. Gates, 462 U.S. 213, 223-224 (1983);
Kamen v. Kemper Fin. Servs., Inc., 500 U.S. 90, 97 n.4,
109 n.10 (1991).
However, even though not developed before, or
considered by the Fifth Circuit, the precedent in Sioux
is consistent with Rule 39’s text. That underscores the
absence of any glaring need to address Fifth Circuit
precedent at this time or in this case.
Rule 39 unambiguously vests the appellate court
with discretion to award all the costs associated with

14
an appeal, under subsection (a), and then provides that
certain of them are taxed in the district court, under
subsection (e). Fed.R.App.P. 39 (a), (e). But subsection (e)
does not vest discretion in the district court to modify
the appellate court’s award, just as it does not transfer
to the district court the appellate court’s discretion
over appellate costs. See Fed.R.App.P. 39.
Before the Fifth Circuit, argument focused on San
Antonio’s contention at that time: the 1998 change to
Rule 39(e) was a substantive change that gave district
courts discretion to modify costs awarded by appellate
courts where none previously existed. As the Fifth
Circuit correctly noted, and San Antonio ultimately
conceded (Ct.App.Reply.Br. 3), the changes to Rule 39
were merely stylistic. So, in the Fifth Circuit’s judgment, the correct question was whether the Fifth
Circuit’s “treatment of Rule 39(e) was just as wrong
before the amendment as it was after.” Op. 11. But the
city did not argue to the Fifth Circuit that Sioux
misinterpreted the pre-amendment text of Rule 39(e).
The petition tries to pursue that argument now and it
has been forfeited.
Whether Rule 39(e) reads that costs “are taxable,”
as the current version does, or “shall be taxable,” as
the prior version did, is of no regard. As the Fifth
Circuit acknowledged, the 1998 amendments were
“intended to be stylistic only.” Op. 11, n.5 (quoting
Advisory Committee Notes to Rule 39). The 1998
amendments were part of a broader effort to “draft
in the present tense, not in the past or future.” See
Guideline 2.2, GUIDELINES FOR DRAFTING AND
EDITING COURT RULES, 169 F.R.D 176, 188 (1997).
Looking at the entirety of Rule 39, it is clear that
any discretion to modify costs lies only with the appellate court. Subsection (a) vests the appellate court

15
with discretion to modify the award of costs under the
Rules, explaining that “[t]he following rules apply
unless the law provides or the court orders otherwise.”
The phrase “the court orders otherwise” is discretionconferring language. Subsection (a) then sets forth the
presumptions that apply unless the appellate court
modifies them. There is no such discretion-conferring
language in Rule 39(e), which reads: “The following
costs on appeal are taxable in the district court for the
benefit of the party entitled to costs under this rule.”
Subsection (e) then sets forth categories of awarded
costs that are to be taxed in the district court. These
categories are all costs for an appeal that have their
genesis (and records) in the district court: preparing
the record, the reporter’s transcript, obtaining supersedeas bonds and the fee for filing a notice of appeal.
The Rules Committee knew how to confer discretion
and could have added language to Rule 39(e) allowing
district courts to modify the appellate court’s award
of costs if that was the intent. The Committee did not
do so.
Even if the 1998 changes to Rule 39(e) were
substantive, the language still does not vest discretion
in the district court. Placed in context in the entire
sentence of Rule 39(e) at issue, the words “are taxable”
refer to the proper tribunal where costs are taxed, and
not to district court discretion over whether costs are
available at all. Fed.R.App.P. 39(e) (“The following
costs on appeal are taxable in the district court for
the benefit of the party entitled to costs under this
rule” (emphasis added)). Subsection (e) instructs on
the tribunal in which to seek particular costs enumerated in that subsection that were awarded by the
appellate court.

16
San Antonio seeks to disturb the allocation of responsibility between the appellate and district courts. Pet.
23 (improperly claiming Sioux “frustrat[es] the Rule’s
express allocation of responsibility between district and
appellate tribunals”). Under San Antonio’s interpretation,
a district court could disregard an appellate court’s
exercise of discretion to award costs on appeal; and the
district court could award subsection (e) costs after the
appellate court has ordered the parties to bear their
own costs of appeal.
That would seriously upend things. The appellate
court decides if costs on appeal are not warranted or
should be reduced, despite the Rule’s normal allowance of those costs to prevailing parties. Fed.R.App.P.
39(a). It evaluates the merits of the appeal and is best
situated to determine whether a particular appeal’s
circumstances warrant a departure from the normal
cost-allocation rules. A district court—particularly one
that has just been reversed—is ill-suited to make such
a decision.
Sioux is entirely consistent with both the current
and prior version of Rule 39(e). Sioux holds: “The
district court has no discretion regarding whether,
when, to what extent, or to which party to award
costs of the appeal. In taxing the costs on appeal, its
sole responsibility is to ensure that only proper costs
are awarded.” 1991 WL 182578, at *1. San Antonio
quibbles with Sioux’s reasoning and focus on the
mandatory nature of the “shall be taxed” language.
Pet. 15. But Sioux’s holding—that a district court
lacks discretion to modify costs awarded by the
appellate court—is faithful to the Rule’s text. Even
when San Antonio does argue for the first time in its
petition that Sioux was incorrect, it merely confirms
subsection (e) only speaks to the proper tribunal in

17
which to seek certain costs. And reading subsection (e)
to include discretion-conferring language is only possible by ignoring the Rule’s entire text and improperly
assuming a district court always has discretion even
where none is provided by the text. These are reasons
to deny review. Even if Sioux’s reasoning is flawed, its
outcome is entirely consistent with the plain language
of Rule 39 as a whole.
If there is any reason to revisit Rule 39’s allocation
of discretion to appellate courts (and there is not), then
that is a task for the Rules Committee, not this Court.
See, e.g., Bell Atl. Corp. v. Twombly, 550 U.S. 544, 569
n.14 (2007) (the only way to broaden the rules is “by
the process of amending the Federal Rules, and not by
judicial interpretation”). There is no reason for the
Court to intervene when the Committee has not done
so and is best situated to evaluate and craft any
change. Consideration of the policy reasons for amending the operation of Rule 39 is more appropriately done
in the quasi-legislative context of rule-drafting, not
judicial interpretation.
C. The petition mischaracterizes the
applicable background principles.
There is no question presented of “great legal and
practical importance,” as the facts of this case demonstrate. All parties benefited from the risks and tradeoffs
underlying the bond premium expenses that are at
issue. Under Sioux, each knew Rule 39(e) provided for
respondents’ likely recovery of those premiums as
costs in the event the district court judgment was
reversed. San Antonio is a sophisticated party with
able counsel; reversal on appeal was a likely outcome
and, nevertheless, San Antonio insisted that the OTCs
obtain sizeable bonds at significant cost.

18
San Antonio claims this issue needs the Court’s
attention because of its potential to arise whenever
there is a bonded judgment on appeal. If that it is true,
it speaks volumes that the Fifth Circuit has been in
its current posture for nearly thirty years without
detectable adverse consequences. If this issue did
recur as frequently as San Antonio contends, then
surely, given how long the purported circuit split has
existed, the Court would have been presented an
opportunity to consider it long before now. Instead, the
Seventh and Fifth Circuits’ precedents have remained
and survived for nearly thirty years in total—and for
twenty years since the 1999 amendment of Rule 39.
San Antonio claims Rule 39(e) implicates the
“most significant part” of a cost award because
“bond premiums * * * can run into the millions” and
in diversity cases “[t]hose amounts * * * can outweigh
the amounts-in-controversy of many suits.” Pet. 17.
But San Antonio assumed this risk, despite knowing
directly adverse Texas precedent made its district
court judgment highly vulnerable on appeal. San
Antonio joined the OTCs’ motion to supersede that
judgment with more than $68 million in bonds
(ROA.15948-49)—a total more than 30 times greater
than the costs awarded to the OTCs pursuant to Rule
39(e). San Antonio’s argument is more an attack on
what the Rules clearly contemplate: recovery—as costs
on a successful appeal—of supersedeas bond premiums.
San Antonio asserts a background principle that
“Congress and the Rules Committee have generally
vested district courts with discretion to award costs”
dependent upon the facts presented in a particular
case. Pet. 17-18 (citing 28 U.S.C. § 1920; Fed.R.Civ.P.
54(d)(1)). But this argument supports the OTCs because
the plain language of Rule 39(e) does not confer district

19
court discretion. Supra, Sect.I.B. By contrast, the
language of section 1920 and Civil Rule 54(d)(1) is
expressly permissive. See 28 U.S.C. § 1920 (“[a] judge
or clerk of any court of the United States may tax as
costs” certain enumerated expenses (emphasis added));
Fed.R.Civ.P. 54(d)(1) (“[u]nless a federal statute, these
rules, or a court order provides otherwise, costs * * *
should be allowed to the prevailing party” (emphasis
added)).
Finally, San Antonio makes a fairness plea, arguing
“the availability of costs under the Federal Rules
should not turn on geography.” Pet. 12. But availability “turns” on the text of Rule 39(a) and (e), which
supports the Fifth Circuit’s position. It is not as
though San Antonio had no opportunity to contest
the award of costs. It could have raised the issues it
presented to the district court at the proper, earlier
time—to the appellate court when that court was
deciding on the cost award. San Antonio could have
asked for a modification of the appellate court mandate.
The city could not credibly claim surprise by the
fact the OTCs sought to recover their bond premium
expenses given the size of the amounts involved. And,
the fact that San Antonio had no complaints about
bearing full costs when they were awarded at the
appellate level (and as to those taxed in the appellate
court) undermines its argument to the district court
that as the class representative it should only bear a
pro rata share of appellate costs. That San Antonio
failed to act at the appropriate time, before the appellate court, or raise its argument for a reduction of costs
at that time, is no fault of the OTCs.

20
II. THIS CASE IS A POOR VEHICLE TO
CONSIDER THE RULE 39 STANDARD.
Even if the Court were inclined to consider the Rule
39(e) standard, this case is a poor vehicle in which to
do so.
First, as discussed above, because of the way the city
framed the issue in its court of appeals merits briefing,
arguments relevant to the proper interpretation of
Rule 39 were not fully presented to the Fifth Circuit
or passed upon by that court. Whether couched as
forfeiture or an underdeveloped record, this factor
counsels against certiorari lest the Court be dragged
into conducting a first view. San Antonio’s argument
that Sioux was wrong at inception (Pet. 22) was never
raised to the Fifth Circuit during briefing to the panel.
Second, even if the Court were to grant review and
adopt petitioner’s interpretation of Rule 39, it would
not change the outcome: the district court would have
no basis to exercise any discretion it might have. That
underscores why the Fifth Circuit’s textually appropriate interpretation of procedures that rule drafters
have left undisturbed should be left undisturbed in
this case, as well, even if that results in less than
complete alignment among the circuits.
This case was brought as a class action. San Antonio
claims it has been “saddled with the full brunt of bond
premiums securing a judgment for 172 other cities,”
and that “‘taxpayers’ will bear this ‘tremendous cost’”
without consideration of whether San Antonio should
be “solely responsible for the full bond amounts.” Pet.
17. Courts have repeatedly rejected the argument that
the named plaintiff/class representative in a class
action should only be responsible for a proportional
amount of defendants’ bill of costs. See, e.g., White v.

21
Sundstrand Corp., 256 F.3d 580, 586 (7th Cir. 2001)
(stating it had “not found any case holding that
responsibility for costs must be parceled out so that no
member of a class pays more than pro rata share.”).
Even if the district court thought there may have been
a “persuasive” basis to reduce appellate costs awarded
on account of supersedeas bond premium expenses,
there was more than a fair prospect of reversal on
appeal if it had done so on the basis that San Antonio
should only pay its pro rata share.
Third, San Antonio’s “taxpayers” will not pay the
costs awarded. Pet. 20. The city is far less than candid
in so contending. Pursuant to the city’s agreement
with its contingency counsel, class counsel is responsible for all costs unless there is a class recovery.
ROA.16923-25. The city, therefore, protected itself
from risk by passing that risk on, via contract, to its
attorneys. See, e.g., White, 256 F.3d at 586 (moving the
risk from the representative plaintiff to class counsel
“can eliminate the financial disincentive that costs
awards otherwise would create.”). This leaves one
wondering why San Antonio’s status as a municipal
entity has any relevance. Pet. 19. And apart from steps
the city has already taken to shift any cost to its
lawyers, the city initiated this civil action, stepped into
the courtroom just like any other plaintiff, and overaggressively pursued diversity claims even after the
Texas state courts had effectively eviscerated them.
San Antonio’s municipal status grants it no special
exoneration. And looking at the situation from the
opposite perspective, the OTCs endured the enormous
costs, uncertainties and disruptions resulting from
San Antonio’s overly-aggressive litigation tactics in
the light of state court authority squarely against the
city. There is nothing inequitable in allowing them a

22
small measure of reimbursement for expenses they
should not have had to incur.
Fourth, San Antonio paints this as a review-worthy
case by contending the OTCs “voluntarily sought”
supersedeas bonds without “exploring less-expensive
alternatives” to stay enforcement of the judgment pending appeal. Pet. 19. But, the record demonstrates the
opposite of that assertion, further showing why this
case is not a suitable vehicle for this Court’s review.
San Antonio joined the OTCs’ request for supersedeas
bonds—which were only obtained at San Antonio’s
insistence—and then required the OTCs to increase
bond amounts on numerous occasions over several years
while the merits appeal was pending. ROA.19971-72.
That the bonds had to be maintained for several years
because of the pace of court proceedings is “through no
fault of the [respondents],” either. Pet. 19. Indeed, “it
is hardly obvious that [the respondents] should bear
the cost” (ibid.) of any bond premium expense given
that, more than four years before the district court’s
amended final judgment, Texas law established that
the OTCs did not owe the hotel taxes San Antonio
has so tenaciously pursued. See City of Houston, 357
S.W.3d at 706. Under these circumstances, where the
OTCs did just what was required of them under Civil
Rule 62 to stay execution, the district court and the
Fifth Circuit appropriately awarded the OTCs costs as
contemplated and authorized by Rule 39(e). See, e.g.,
Enserch Corp. v. Shand Morahan, 918 F.2d 462, 46364 (5th Cir. 1990) (Rule 62 establishes that losing
parties “can obtain a stay pending appeal only by
giving a supersedeas bond”).

23
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
ANNE MARIE SEIBEL
BRADLEY ARANT BOULT
CUMMINGS LLP
1819 5th Avenue North
Birmingham, AL 35203
MICHAEL BENTLEY
BRADLEY ARANT BOULT
CUMMINGS LLP
One Jackson Place
188 E. Capitol Street
Ste 1000
Jackson, MS 39201

THOMAS M. PETERSON
Counsel of Record
MORGAN, LEWIS & BOCKIUS LLP
One Market
Spear Street Tower
San Francisco, CA 94105
(415) 442-1000
thomas.peterson@
morganlewis.com

Counsel for Respondents
Hotels.com L.P., Hotwire,
Inc., Trip Network, Inc.,
Expedia, Inc., Internetwork
Counsel for Respondents
Publishing Corp., Orbitz, LLC.,
Priceline.com Incorporated
and TravelNow.com, Inc.
(n/k/a Booking Holdings
Inc.) and Travelweb L.L.C.

DAVID KELTNER
KELLY HART &
HALLMAN LLP
201 Main Street
Ste 2400
Fort Worth, TX 76102
Counsel for Respondents
Site59.com, L.L.C. and
Travelocity.com L.P.
December 2, 2020

